 

 

IN THE
SUPREME COURT OF THE UNITED STATES
October 2020 Term

SCOTT TUCKER,
Petitioner,
v.

UNITED STATES,
Respondent.

 

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

 

PROOF OF SERVICE

I, Beverly Van Ness, counsel of record for petitioner, Scott Tucker, do
swear and declare that on this date, January 19, 2021, as required by Supreme
Court Rule 29, I have served the enclosed Motion to Proceed in Forma Pauperis
on counsel for respondent to the above proceeding, the only person required to be
served, by mailing it, on this date, in a post-paid envelope deposited in a United
States Postal depository.

The name and address of the person served is as follows:
The Solicitor General of the United States
Room 5616 :
Department of Justice

950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 19, 2021.
Cc

Van New
Beverly Van Ness, Esq.
233 Broadway, Suite 2704
New York, NY 10279
212-274-0402
bvanness.law@gmail.com
Counsel of Record for Petitioner Scott Tucker
